No. ________________
IN THE SUPREME COURT OF THE UNITED STATES
JAMAL CLINTON,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, Nikolina Gurfinkel, do swear or declare that on this date, December 30, 2020,
as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by giving one true copy of same, addressed
to each individual respectively, and enclosed in a properly addressed wrapper, to
Federal Express for Overnight Delivery, postage prepaid.
The names and addresses of those served are as follows:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530-0001
That on the same date as above, I sent to this Court ten copies of the within Motion
for Leave to Proceed In Forma Pauperis and Petition for a Writ of Certiorari via
Federal Express Overnight Delivery, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Sworn to before me this
December 30, 2020

s/Nikolina Gurfinkel
Nikolina Gurfinkel
ORIGINAL

39051

